CERTIFICATE OF SERVICE
NO. 20-990
Thomas J. Dart, Sheriff of Cook County, Illinois
Petitioner,
v.
Anthony Mays, Et Al.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the THE
NATIONAL SHERIFFS’ ASSOCIATION AND CALIFORNIA STATE ASSOCIATION OF COUNTIES AMICI CURIAE
BRIEF AT PETITION STAGE IN SUPPORT OF PETITIONER, by mailing three (3) true and correct copies of
the same by Fedex 2-Day, prepaid for delivery to the following addresses.
Gretchen Harris Sperry
Hinshaw & Culbertson, LLP
151 N. Franklin Street
Chicago, IL 60606
(312) 704-3521
gsperry@hinshawlaw.com
Counsel for Thomas J. Dart

Sarah Grady
Loevy & Loevy
311 N. Aberdeen St., 3rd Fl.
Chicago, IL 60601
(312) 243-5900
sarah@loevy.com
Counsel for Respondents

Lucas DeDeus

February 24, 2021
SCP Tracking: Champagne-260 Judge Edward Dufresne Parkway-Cover Cream

